                                Office of Inspector General
                               Corporation for National and
                                        Community Service




     AUDITOF GRANTS
                  AWARDED  TO
THE TENNESSEE COMMISSION
                       ON NATIONAL
       AND COMMUNITYSERVICE
         OIG REPORT
                  NUMBER
                       06-30




                                               Cornoration for             -
                                               NATIONAL &
                                               COMMUNITY
                                               SERVICE-




                       Prepared by:

             CONRAD and ASSOCIATES, LLP
              2301 Dupont Drive, Suite 200
                 Iwine, California 92612



This report was Issued to Corporation management on April 26, 2006. Under
the laws and regulations governing audit follow-up, the Corporation is to make
final management decisions on the report's flndlngs and recommendations no
later than October 26, 2006, and complete Its corrective actions by April 26,
2007. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                                              gxwryokAL &
                                              COMMUNITY
                                              SERVICE=

                                Audit of Grants Awarded to the
                    Tennessee Commission on National and Community Service
                                      Audit Report 06-30

OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with C o d and Associates, L.L.P. (Conrad) to perform an audit
of m t s awarded to the Tennessee Commission on National and Community Service
(commission). The audit generally covered the latest two years of performance of nine
grants initially awarded during the period September 1,2000, to January 1,2005.

Funding authorized for these grants totaled $7.9 million, with costs claimed totaling about
$4.5 million. The audit identified questioned costs totaling $22,661, most of which were
attributed to the Promise Fellows Grant with costs claimed for living allowances of
members who served less than 12 months. The auditor questioned these costs because the
Commission received funds from the Corporation in excess of the amount to which it was
entitled for such members. The OIG notes that the audit questions these amounts in terms
of what is due the Commission, not necessarily whether the members were overpaid.
Specifically, with regard to the Promise Fellows Grant, the auditors questioned costs of
$18,920. Although the Commission may pay living allowances to members in excess of its
entitlement, it should not claim costs in excess of that amount. To do so results in
unnecessary payments that increase costs to the Federal Government, even though the
excess payments may be recouped later.

The auditors also questioned non-grant costs of $9,310 for members who did not serve
sufficient hours to earn education awards. The report also includes five findings and six
recommendations to improve compliance with g&t requirements and to impro;e internal
controls. The Commission was responsive to the recommendations, and the Corporation
intends to address all findings and r&ommendations in its management decision.

The OIG reviewed Conrad's report and related documentation and made necessary inquiries
of its representatives. Our review, as differentiated from an audit in accordance with
generally accepted government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on the Consolidated Schedule of Award Costs, related
exhibits and schedules, or conclusions on the effectiveness of internal controls and
compliance with laws and regulations.

Conrad is responsible for this report, dated November22, 2005, and the conclusions
expressed therein. However, our review disclosed no instances where Conrad did not
comply, in all material respects, with generally accepted government auditing standards.

This report is a matter of public record, and its distribution is not limited.

                       1201 New Yo* Avenue, NW* Suite 830, Washington, DC 20525
                                          *
                          202-606-9390 Hotline: 800-452-8210 www.cncsig.gov         USA =
                                                                                    ~reedodCorps
                           Senior Corps       AmeriCorps   Leam and Serve America   h'ab o D i b . WnW.
                              Audit of Grants Awarded to the
                  Tennessee Commission on National and Community Service
                                   Nashville. Tennessee

                                               TABLE OF CONTENTS


REPORT SUMMARY AND HIGHLIGHTS

        Executive Summary ............................................................................................. 1

        Background .......................................................................................................... 1

        Objectives. Scope. and Methodology .................................................................. 2

        Grant Programs Audited ......................................................................................4

        Costs Questioned           .................................................................................................4
        Compliance and Internal Control Findings ........................................................... 5

INDEPENDENT AUDITOR'S REPORT ....................................................................... 6

FINANCIAL SCHEDULES

        Consolidated Schedule of Award Costs ............................................................. 8

        Notes to Consolidated Schedule of Award Costs ............................................. 9

        Exhibit A .Schedule of Award Costs: AmeriCorps                                 .......................................... 10
            Schedule A-1 . Schedule of Award Costs:
                   Clinch Powell Research Council & Development Council ................ 11

            Schedule A-2 . Schedule of Award Costs:
                   Porter Leath Children's Center ...................................................... 12

            Schedule A-3 .Schedule of Award Costs:
                   Vanderbilt University Medical Center                            ........................................... 13
        Exhibit B .Schedule of Award Costs: Administrative                                 ...................................... 14
        Exhibit C .Schedule of Award Costs: Promise Fellows ................................... 16

        Exhibit D .Schedule of Award Costs: Disability .............................................. 17
                             Audit of Grants Awarded to the
                 Tennessee Commission on National and Community Service
                                  Nashville, Tennessee

                                TABLE OF CONTENTS (CONTINUED)


INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE
     AND INTERNAL CONTROL ........................................................................... 18
                           . .
        Compliance Findings ............................................................................................ 19

        Internal Control Finding           ......................................................................................25
INTERNAL CONTROLS OVER FINANCIAL REPORTING .................................26

APPENDICES

        A: Response to the Draft Report by the Tennessee Commission on
             National and Community Service ..................................................................

        B: Response to the Draft Report by Corporation for National and
           Community Service ......................................................................................
REPORT SUMMARY AND HIGHLIGHTS
CONRAD                 mD                                                 CERTIFIED PUBLIC ACCOUNTANTS

ASSOCIATES, L . u                                                                       2301 DUPONT DRIVE, SUITE 200
                                                                                             IRVINL, CALIFORNIA 92612
                                                                                                          (949) 474-2020
                                                                                                      lax (949) 263-5520




  Ofice of Inspector General
  Corporation for National and Community Service


  This report is issued under an Office of Inspector General (OIG) engagement with Conrad
  and Associates, L.L.P. to audit the costs claimed by the Tennessee Commission on National
  and Community Service (Commission) and its subgrantees from September 1,2002, through
  June 30, 2005, under the grants awarded by the Corporation for National and Community
  Service (Corporation). This report focuses on the audit of claimed costs, instances of
  noncompliance with Federal laws, applicable regulations or award conditions, and internal
  control weaknesses disclosed during the audit of the Commission and its subgrantees.

                                           Executive Summaw

  As a result of our audit, we are questioning grant costs totaling $22,661. We are also
            -
  auestioning match costs claimed. Some of the auestioned match costs were claimed in
  excess of the minimum match required. The costs questioned are approximately 0.50 percent
  of the total $4,514,097 in costs claimed by the Commission. A questioned cost is an alleged-
  violation or provision of law, regulation, contract, grant, or cooperative agreement, or other
  agreement or document governing the expenditure of funds; a finding that, at the time of the
  audit, such cost is not supported by adequate documentation; or a finding that the expenditure
  of funds for the intended purpose is unnecessary or unreasonable. Costs questioned include
  living allowances for which key eligibility documentation could not be located and costs not
  allocable to the AmeriCorps program. Details for questioned costs appear in the Independent
  Auditor's Report.

  AmeriCorps members who successfully complete terms of service under AmeriCorps grants
  are eligible for education awards from the National Service Trust. These award amounts are
  not funded by Corporation grants and thus are not included in claimed costs. However, as
  part of our audit, we determined the effect of audit findings on education award eligibility.
  Using the same criteria described above, we questioned education awards of $9,310.

  This report also includes five findings and six recommendations to improve the
  Commission's internal controls and compliance with grant provisions.

                                                Background

  The Corporation, pursuant to the authority of the National Community Service Trust Act of
  1993, as amended, awards grants and cooperative agreements to State commissions, such as




                   MEMBERS OF AlCPA AND CALIFORNIA SOCIETY OF CERTIFIED PUBLIC ACCOUNTANTS
        MEMBER OF AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS PRIVATE COMPANIES PRACTICE SECTION
the Tennessee Commission on National and Community Service, and other entities to assist
in the creation of full-time and part-time national and community service programs.

The Commission is a division within the State of Tennessee's Department of Finance and
Administration and is headquartered in Nashville, Tennessee. It has been providing national
and community service programs since 1995. It currently employs seven full-time staff and
an Executive Director.

As illustrated by the table that follows, the Commission has received almost $8 million in
funding for various Corporation programs, has claimed costs of $4.5 million, and has drawn
down almost $4 million for the period audited. Of the amount received, the Commission
awarded approximately $6.8 million to subgrantees, which are mostly nonprofit entities and
Tennessee State Government entities.

                                              Funding
               AwardProeram                 Authorized      Claimed         Drawdowns
    03ACHTN001- AmeriCorps -                $ 2,165,744    $ 1,319,782      $ 957,914
    Competitive
    03AFHTN002 - AmeriCorps -Formula           2.865.295      1.447.265       1.373.722
       Total AmeriCorps Funds                  5.031.039      2.767.047       2,331.636

    02SVHTN014 - Homeland Security               429.124          232.388       232.661

    04CAHTN001 - Administrative                  551,305          334,375       237.007

    02PDSTN042 - PDAT**
    05PTHTN001- PDAT
       Total PDAT Funds

    00LCSTN042 - Learn & Serve

    01APSTN044 -Promise Fellows

    04CDHTN001 - Disability                      137.000           51,682        38.497
       Total - Grants Administered by the
               Commission                   u,951.780      $ 4.514,QYP      $ 3.950.563

*     The differences between the amount claimed and the amount drawn down are generally
      due to timing issues.
**    Program Development and Training (PDAT) Funds

                              Objectives, Scope, and Methodolow

We performed our audit during the period August 16 through November 22,2005, and used
methodologies we deemed appropriate for the scope of the audit. Our Independent Auditor's
Report and our Independent Auditor S Report on Compliance and Internal Control provide
additional details about the scope and methodology. The objectives of our audit were to
determine whether:

       0    the Commission's financial reports fairly presented the financial results of the
            awards;

            internal controls were adequate to safeguard Federal funds;

        0   the Commission had adequate procedures and controls to ensure compliance with
            Federal laws, regulations, and award conditions, as well as ensure that member
            services were appropriate;

       0    award costs reported to the Corporation were documented and allowable in
            accordance with the award terms and conditions; and

       0    the Commission had established adequate oversight and informed subgrantees of
            the Corporation's Government Performance and Results Act (GPRA) goals.


We performed the audit in accordance with auditing standards generally accepted in the
United States of America and generally accepted government auditing standards issued by
the Comptroller General of the United States. Those standards require that we plan and
perform the audit to obtain reasonable assurance about whether the amounts claimed against
the awards, as presented in the Consolidated Schedule of Award Costs, are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the Consolidated Schedule of Award Costs. An audit also includes
assessing the accounting principles used and significant estimates made by the auditee, as
well as evaluating the overall financial schedule presentation. Our audit included reviews of
audit reports prepared by the independent public accountants for the subgrantees in
accordance with the requirements of OMB Circular A-133, Audits of States, Local
Governments and Non-profit Organizations, OMB Circular A-21, Cost Principles for
Educational Institutions, and OMB Circular A-87, Cost Principles for State, Local, and
Indian Tribal Governments. We believe our audit provides a reasonable basis for our
opinion.

The contents of this report were disclosed to and discussed with the Commission at an exit
conference held on December 22,2005. In addition, we provided a draft of this report to the
Commission and to the Corporation for comment on March 9,2006, and received responses
from the Commission (Appendix A) and the Corporation (Appendix B) on April 10,2006.
                                        Grant Programs Audited

Our audit of the Commission covered financial transaction and compliance and internal
controls testing of the following program awards funded by the Corporation:

        Program               Award Number                 Award Period                 Audit Perioda
  AmeriCorps                  03ACHTN001               08/08/03 to 08/07/06         08/28/03 to 03/31/05
  AmeriCorps                  03AFHTN002               08/28/03 to 08/27/06         08/28/03 to 03/31/05
  Homeland Security           02SVHTN014               09/01/02 to 0813 1/05        03/01/03 to 02/28/05
  Administrative              04CAHTNOO1               01/01/04 to 12/31/06         01/01/04 to 06/30/05
  PDAT                        02PDSTN042               01/01/02 to 12/31/04         0710 1/03 to 12131/04
  PDAT                        05PTHTN001               01/01/05 to 12/31/07         01/01/05 to 06/30/05
  Learn & Serve               OOLCSTNO42               09/01/00 to 0813 1/04        09/01/02 to 0813 1/04
  Promise Fellows             01APSTN044               08/01/01 to 02/28/05         03/01/03 to 02/28/05
  Disability                  04CDHTN001               01/01/04 to 12/31/06         01/01/04 to 06/30/05

                                             Costs Ouestioned

The following summarizes the costs questioned on these awards:
    AmeriCorvs Grants
      Fringe Benefits
          Subtotal

    Administrative Grant
      Journal Entry Error
      Risk Management Premiums
      Budgeted Personnel Costs
      Personnel Costs for Dual Service Agreement
      Fringe Benefits for Dual Service Agreement
          Subtotal

    Disabilitv Grant
       Personnel Costs for Dual Service Agreement
       Budgeted Personnel Costs
       Fringc Benefits for Dual Service Agreement
           Subtotal
    Promise Fellows Grant
       Partial Living Allowances
  Total Grant Costs Questioned
  Education Awards questioned

a - Audit periods differ because Financial Status Reports (FSR) are filed for different periods based on the
grant award. Our audit reflected costs through the last amended FSR filed as of fieldwork end for the audit
period applicable to each grant, as referenced in the table above.
                                                       4
We used a judgmental sampling method to test the costs claimed. Based upon this sampling
plan, questioned costs in this report may not represent total costs that may have been
questioned had all expenditures been tested. In addition, we have made no attempt to project
such costs to total expenditures incurred, based on the relationship of costs tested to total
costs. For a complete discussion of these questioned costs, refer to the Independent
Auditor's Report.

                       Comuliance and Internal Control Findings

Our audit disclosed the following instances of internal control weaknesses and
noncompliance with Federal laws, regulations, and award conditions:

   1. Promise Fellows living allowances were not paid in accordance with grant provisions.

   2. The Commission did not have adequate procedures in place to ensure that the
      subgrantees documented member eligibility, and to ensure that members completed
      the service hours required to earn the education award.

   3. The Commission did not have adequate financial monitoring procedures or other
      procedures in place to ensure that it or its subgrantees had claimed costs in
      accordance with the cost principles.

   4. The Commission did not monitor subgrantees for timely enrollment or exit of
      members, nor did it ensure receipt of timely progress reports.

   5. The Postal Division handling fee computation was not supported.
CONRAD                    mD                                                  CERTIFIED PUBLIC A C C O U N T A N T S
                                                                                           2301 DUPONT DRIVE, SUITE 2W
ASSOCIATES, L.L.l?                                                                              IRVINE, CALIFORNIA 92612
                                                                                                              1949)
                                                                                                              .   . 474-2020
                                                                                                         Fax (949) 263-5520



   Office of Inspector General
   Corporation for National and Community Service

                                 INDEPENDENT AUDITOR'S REPORT

   We have audited the costs incurred by the Tennessee Commission on National and
   Community Service for the award numbers listed below. These costs, as presented in the
   Consolidated Schedule of Award Costs and the grant-specific Schedules of Award Costs
   (Exhibits A through D), are the responsibility of the Tennessee Commission on National and
   Community Service management. Our responsibility is to express an opinion, based on our
   audit, on the Consolidated Schedule of Award Costs.

           Program               Award Number                 Award Period                 Audit Perioda


     ~ o m e l a n d ~ e c u r i t02SVHTN014
                                  ~                       09/01/02 to 0813 1/05         03/01/03 to 02/28/05
     Administrative               04CAHTN001              01/01/04to12/31/06            01/01/04to06/30/05
     PDAT                         02PDSTN042              01/01/02 to 12131/04          07/01/03 to 12/31/04
     PDAT                         05PTHTN001              01/01/05 to 12/31/07          01/01/05 to 06/30/05
     Learn & Serve                OOLCSTNO42              09/01/00 to 08/31/04          09/01/02 to 0813 1/04
     Promise Fellows              01APSTN044              08/01/01 to 02/28/05          03/01/03 to 02/28/05
     Disability                   04CDHTN001              01/01/04 to 12/31/06          01/01/04 to 06130105

   We conducted our audit in accordance with auditing standards generally accepted in the
   United States of America and generally accepted government auditing standards issued by
   the Comptroller General of the United States. Those standards require that we plan and
   perform the audit to obtain reasonable assurance about whether the financial schedules are
   free of material misstatement. An audit includes examining, on a test basis, evidence
   supporting the amounts and disclosures in the financial schedules. An audit also includes
   assessing the accounting principles used and significant estimates made by management, as
   well as evaluating the overall financial schedule presentation. We believe our audit provides
   a reasonable basis for our opinion.




   a - Audit periods differ because Financial Status Reports (FSR) are filed for different periods based on the
   grant award. Our audit reflected costs through the last amended FSR filed as of fieldwork end for the audit
   period applicable to each grant, as referenced in the table above.




                      MLUHERSOF A C I ' A A h D LA. FOKh.ASOCIETY O F CLRTlFlED PL BLICACCOL h l A h T S
          MEMBER C F A\IER CA4 hSTlTLTE O F CERTIF ED PLBLlC ACCOr\TA\TS PRIVATE COUPAhlES PRACTlCE SCCTION
In our opinion, except for the $22,661 in questioned grant costs discussed above, the
Consolidated Schedule of Award Costs and the grant-specific Schedules of Award Costs
(Exhibits A through D and related Schedules) referred to above present fairly, in all material
respects, the costs claimed for the period September 1,2002, to June 30,2005, in conformity
with generally accepted accounting standards in the United States of America.

In accordance with the Government Auditing Standards, we have also issued our report,
dated November 22, 2005, on our consideration of the Tennessee Commission on National
and Community Service's internal controls over financial reporting and on our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements and
other matters. The purpose of that report is to describe the scope of our testing of internal
control over financial reporting and compliance and the results of that testing, and not to
provide an opinion on the internal control over financial reporting or on compliance. That
report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be considered in assessing the results of our audit.




Conrad and Associates, L.L.P.
Irvine, California
November 22,2005
                Corporation for National and Community Sewice Awards
               Tennessee Commission on National and Community Sewice
                         Consolidated Schedule of Award Costs

                             September 1,2002, to June 30,2005


                                                                               Questioned
                                      Approved       Claimed      Questioned   Education
Award Number                           Budeet         -
                                                      Costs           Costs                 Reference

                AmeriCorps            $2,165,744    $ 1,319,782   $     276
                AmeriCorps             2.865.295     1.447.265             -      4.725
                 Total AmeriCorps      5.03 1.039    2,767,047          276       9.3 10    Exhibit A

                Homeland Security        429.124       232,388             -          -

                Administrative                         334,375         1.636          -     Exhibit B

                PDAT                     304,751       285,403             -
                PDAT                     119.000        27.872
                 Total PDAT Funds        423.751       313.375

                Learn & Serve                          485.249

                Promise Fellows                        329.981        18,920          -     Exhibit C

                Disability                              51.682         1.829          -     Exhibit D

                              Totals 57.951.7(m     %4.514.097 %22.661          s=2%u
               Corporation for National and Community Service Awards
              Tennessee Commission on National and Community Service

                       Notes to Consolidated Schedule of Award Costs

                            September 1,2002, to June 30,2005

Reaortine Entity

The accompanying consolidated Schedule of Award Costs includes amounts budgeted,
claimed, and questioned under AmeriCorps, Administrative, Program Development and
Training (PDAT), and other grants awarded to the Tennessee Commission on National and
Community Service (Commission) by the Corporation for the period from September 1,
2002, to June 30,2005.

The Commission awards its AmeriCorps grant funds to numerous subgrantees that
administer AmeriCorps programs and report financial and programmatic results to the
Commission.


Basis of account in^

The accompanying Schedule has been prepared to comply with the provisions of the grant
agreements between the Corporation and the Commission. The information presented in the
Schedule has been prepared from the reports submitted by the Commission to the
Corporation. The basis of accounting used in preparation of these reports differs slightly
from accounting principles generally accepted in the United States of America as follows:

       Eguivment
       Equipment is charged to expense in the period during which it is purchased instead of
       being recognized as an asset and depreciated over its useful life. As a result, the
       expenses reflected in the Schedule of Award Costs include the cost of equipment
       purchased during the period rather than a provision for depreciation. The equipment
       acquired is owned by the Commission while used in the program for which it was
       purchased or in other future authorized programs. However, the Corporation has a
       reversionary interest in the equipment. Its disposition, as well as the ownership of
       any proceeds there from, is subject to Federal regulations.

       Inventory
       Minor materials and supplies are charged to expense during the period of purchase.
                                                                             Exhibit A
                                                                            Page 1 of 1

   TENNESSEE COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                     Schedule of Award Costs
                         Award Numbers
                  03ACHTN001 and 03AFHTN002
                 August 28,2003, to March 31,2005


                                                  Questioned   Questioned
                                        Claimed    Claimed     Education
Detailed Audits of AmeriComs             costs      Costs       Awards          Reference

Subarantees
Clinch Powell RC&D Council*                                     $       -     Schedule A-1
Emerald Youth Foundation*                                               -
Exchange Club Center Mid-South*
Knox County Community Action
    Committee
Nashville Read                                                          -
Porler Leath Center*                                                4,725     Schedule A-2
Vanderbilt University Medical
    Center*                                                         4,585     Schedule A-3
Appalachia Habitat for Humanity                                         -
Department of Mental Health
Exchange Club Carl Perkins Center
Family Affair Ministries
Knoxville's Promise
Oasis Center
Tennessee Community Assistance
    Corporation
United Way of Greater Chattanooga
Upper Cumberland Community
    Services
                     Subgrantee Total


* Selected for Audit
                                                                               Schedule A-1
                                                                                 Page 1 of 1

    TENNESSEE COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                       Schedule of Award Costs
           Award Number 03AFHTN0020004 & 03ACHTN0010006
                   August 28,2003, to March 31,2005

       Clinch Powell Research Council & Development Council (Clinch Powell)

                                                                                   Reference

Approved Budget (Federal Funds)                                                      Note 1
Claimed Costs                                                                        Note 2
Questioned Costs
   Member Living Allowances &
       Fringe Benefits - Competitive grant                                           Note 3
   Member Living Allowances &
       Fringe Benefits - Formula grant                                               Note 3

Total Questioned Costs




1. The amount shown above as Approved Budget represents the total funding to Clinch
   Powell according to budget schedules for both grants.

2. Claimed costs represent Clinch Powell's reported expenditures for the period August 28,
   2003, through March 3 1, 2005, for both grants.

3. Costs were misclassified between the competitive and formula grants. The subgrantee
   paid members from the formula grant in August of 2004 for services provided in July
   2004. The competitive grant began in August 2004. Since the subgrantee maintained its
   records on the cash basis, the transactions for the July 2004 member living allowances
   were incorrectly recorded to the competitive grant. The subgrantee did not take care of
   recording costs in the proper grants. Therefore, the competitive grant was overstated, and
   the formula grant was understated by $4,610 (see Compliance Finding No. 3.)
                                                                           Schedule A-2
                                                                             Page 1 of 1

   TENNESSEE COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                       Schedule of Award Costs
           Award Number 03AFHTN002003 & 03ACHTN0010004
                   August 28,2003, to March 31,2005

                    Porter Leath Children's Center (Porter Leath)

                                                                               Reference

Approved Budget (Federal Funds)                                 $602.400         Note 1
Claimed Costs                                                   $X!22%           Note 2

Total Questioned Costs
Questioned Education Awards
   Service Hours not Achieved                                                     Note 3

Total Questioned Education Awards




1. The amount shown above as Approved Budget represents the total funding to Porter
   Leath according to budget schedules for both grants.

2. Claimed costs represent Porter Leath's reported expenditures for the period August 28,
   2003, through March 3 1,2005, for both grants.

3. Member timesheets disclosed required service hours were not achieved to warrant an
   education award (see Compliance Finding No. 2.).
                                                                              Schedule A-3
                                                                                Page 1 of 1

    TENNESSEE COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                      Schedule of Award Costs
                  Award Number 03ACHTN0010001
                  August 28,2003, to March 31,2005

                   Vanderbilt University Medical Center (Vanderbilt)

                                                                                  Reference

Approved Budget (Federal Funds)                                                     Note 1
Claimed Costs                                                                       Note 2
Questioned Costs

   Member Fringe Benefits -Error                                                    Note 3

Total Questioned Costs
Questioned Education Awards
       Service Hour Miscalculation                                                  Note 4

Total Questioned Education Awards



1. The amount shown above as Approved Budget amount represents the total funding to
   Vanderbilt University according to the budget schedules.

2. Claimed costs represent Vanderbilt University's reported expenditures for the period
   August 28,2003, through March 31,2005.

3. The University's payroll system automatically computes fringe benefits based on its
   fringe benefit rate. However, AmeriCorps members receive only FICA as a fringe
   benefit. During periods when the University's fringe benefit rate exceeds the FICA rate
   of 7.65 percent, an adjustment is required to reduce costs claimed to the grant to actual
   benefits received. During program year 200312004, the University's fringe benefit rate
   was 11.4 percent. An adjusting journal entry was prepared to reflect actual benefits.
   The adjustment, however, was prepared in error; causing grant costs to be overstated by
   $276 (see Compliance Finding No. 3.)

4. An education award was granted to a member who did not fulfill the minimum number
   of hours needed to receive the award (see Compliance Finding No. 2.).
                                                                                   Exhibit B
                                                                                  Page 1 of 2

   TENNESSEE COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                     Schedule of Award Costs
                   Award Number 04CAHTN001
                  January 1,2004, to June 30,2005


ADMINISTRATIVE GRANT
                                                                      Reference

Approved Budget (Federal Funds)                                         Note 1

Claimed Costs                                                           Note 2

Questioned Costs
   Journal Entry Error                                                  Note 3
   Insurance Premium Error                                              Note 4
   Dual Service Agreement                                               Note 5
   Budgeted Personnel Costs                                             Note 6
Total Questioned Costs

Questioned Match Costs                                                  Note 7



1. The amount shown above as approved budget represents the total funding to the 2004 and
   2005 Administrative Grant for the grant periods per the budget schedules for the
   Tennessee Commission on National and Community Service grants.

2. Claimed costs represent the amount of reported expenditures of the Administrative Grant
   from January 2004 through March 3 1,2005.

3. A journal entry adjusting estimated indirect costs to actual was prepared in error because
   it included a correction to the original entry twice. This caused the grant costs to be
   overstated by $275 to the Corporation and to grant match (see Compliance Finding
   No. 3.).
                                                                                   Exhibit B
                                                                                  Page 2 of 2

    TENNESSEE COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                       Schedule of Award Costs
                    Award Number 04CAHTN001
                    January 1,2004, to June 30,2005

4. Internal billings from the State of Tennessee's Risk Management group are prepared and
   submitted to divisions within the State Government. These billings cover the costs of the
   workers' compensation fund and the general liability fund for the Commission. We
   determined, however, that the 2005 billing included premiums for the auto liability fund.
   This billing was prepared in error since the Commission had no assigned state vehicles.
   The error occurred because the spreadsheet used to compute costs to different divisions
   had erroneously carried the figure to the row in the spreadsheet below where it should
   have been placed. This went unnoticed by persons within the Risk Management group or
   persons at the Commission. As a result, the administrative grant was overstated by
   $1,474; i.e., $737 claimed directly to the grant and $737 claimed to grant match (see
   Compliance Finding No. 3.).

5. The State of Tennessee entered into a dual service agreement whereby one of the
   Commission employees provided services to Columbia State Community College. The
   costs of the employee were paid for by the State of Tennessee and then reimbursed by the
   community college. The reimbursement, however, was never recorded against the grant
   expense because consideration of how to record these dual service agreement
   reimbursements had not been previously considered. As a result, costs claimed to the
   grants were overstated by the amounts shown above (see Compliance Finding No. 3.).

6. During 2003, a Commission employee shared her responsibilities between the
   Administrative grant (04CAHTN001) and the Disability grant (04CDHTN001). The
   costs that were claimed to the two grants, however, were based on budgeted figures rather
   than actual levels of effort. This error occurred because this was a new arrangement for
   the Commission in which they had not considered the cost accounting implications from
   the onset. Further analysis based on a review of timesheets revealed that the costs
   originally budgeted and claimed varied from the actual effort, causing the Disability grant
   costs to be overstated by $382 and the Administrative grant costs to be understated, also
   by $382. Half of the Administrative grant, however, was recorded to grant match (see
   Compliance Finding No. 3.).

7. Match costs questioned represent the summation of notes number 3 through 6 above.
   The grantee claimed match costs as 50 percent of costs incurred. The match costs
   questioned here represent the other half of the costs questioned above (see Compliance
   Finding No. 3.).
                                                                               Exhibit C
                                                                              Page 1 of 1

   TENNESSEE COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                     Schedule of Award Costs
                   Award Number OlAPSTN044
                 March 1,2003, to February 28,2005

PROMISE FELLOWS GRANT
                                                                              Reference

Approved Budget (Federal Funds)                                 $   628.200     Note 1

Claimed Costs                                                  $                Note 2

Questioned Costs
   Living Allowances                                           $     18.920     Note 3

Total Questioned Costs                                          $    18.920

-
Notes

1. The amount shown above as Approved Budget represents the total funding from August
   2001 through February 2005 for the Promise Fellows grant periods per the budget
   schedules for the Tennessee Commission on National and Community Service grants.

2. Claimed costs represent the amount of reported expenditures applicable to our audit
   period, March 2003 through February 2005.

3. Partial member living allowances were not computed in accordance to the provisions,
   causing payments to the members and costs claimed to the grant to be overstated (see
   Compliance Finding No. 1.) The calculation of questioned cost by member follows:

                                    Total                      Average   # of
                                   Service                     Monthly Months
                                   Hours                      Paid Based  less   Total
              Enroll     End of   Incurred             # of      on 11   than  Questioned
Enrollment     Start     Term        Per     Amount Months Months FT      142   Living
                Date     Date                Claimed Enrolled Enrollment
Full-Time    01/26/04   12/22/04 1,552.50    $ 10,800   11     $ 981.82
Full-Time    01/26/04   12/19/04 1,199.25      10,800   11       981.82
Full-Time    01/26/04   04/16/04   277.75       2,582    3       860.76
Full-Time    01/26/04   03/19/04   176.50       1,700    2       849.96
Full-Time    01/26/04   07/30/04   925.00       5,888    6       981.36
Full-Time    03/01/04   06/01/04   23 1.OO      1,960    3       653.28
Full-Time    01/26/05   02/05/04    56.00         315            316.36
                                                                                  Exhibit D
                                                                                 Page 1 of 1
    TENNESSEE COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                      Schedule of Award Costs
                    Award Number 04CDHTN001
                   January 1,2004, to June 30,2005
DISABILITY GRANT
                                                                                   Reference
Approved Budget (Federal Funds)                                                       Note 1
Claimed Costs                                                                         Note 2
Questioned Costs
   Personnel and Fringe Benefit Costs                                                 Note 3
   Budgeted Personnel Costs                                                           Note 4
Total Questioned Costs



1. The amount shown above as Approved Budget represents the total funding from January
   2004 through December 2006 for the Disability grant periods per the budget schedules for
   the Tennessee Commission on National and Community Service grants.

2. Claimed costs represent the amount of reported expenditures applicable to our audit
   period, January 2004 through June 2005.

3. The State of Tennessee entered into a dual service agreement whereby one of the
   Commission employees provided services to Columbia State Community College. The
   costs of the employee were paid for by the State of Tennessee and then reimbursed by the
   community college. The reimbursement, however, was never recorded against the grant
   expense because consideration of how to record these dual service agreement
   reimbursements had not been previously considered. As a result, costs claimed to the
   grants were overstated by the amounts shown above (see Compliance Finding No. 3.).

4. During 2003, a Commission employee shared her responsibilities between the
   Administrative grant (04CAHTN001) and the Disability grant (04CDHTN001). The
   costs that were claimed to the two grants, however, were based on budgeted figures rather
   than actual levels of effort. This error occurred because this was a new arrangement for
   the Commission in which they had not considered the cost accounting implications from
   the onset. Further analysis, based on a review of timesheets, revealed that the costs
   originally budgeted and claimed varied from the actual effort causing the Disability grant
   to be overstated by $382 and the Administrative grant to be understated by $382. Half of
   the Administrative grant, however, was recorded to grant match (see Compliance Finding
   No. 3.).
CONRAD                     AND                                                        CERTIFIED PUBLIC ACCOUNTANTS

ASSOCIATES, L.L.p                                                                                    2301 DUPONT DRIVE, SUITE 200
                                                                                                          IRVINE, CALIFORNIA 92612
                                                                                                                       (949)474-2020
                                                                                                                   Fax (949) 263-5520
  Office of Inspector General
  Corporation for National and Community Service

                               INDEPENDENT AUDITOR'S REPORT ON
                              COMPLIANCE AND INTERNAL CONTROL

  We have audited the Schedules of Award Costs, as presented in Exhibits A through D, that
  summarize the claimed costs of the Tennessee Commission on Community on National and
  Community Service under the Corporation grants listed below, and have issued our report
  thereon, dated November 22,2005.

         Program                    Award Number                   Award Period                     Audit Perioda
    Amencorps                      03ACHTN001                  08/08/03 to 08/07/06             08/28/03 to 03/31/05
    AmeriCorps                     03AFHTN002                  08/28/03 to 08/27/06             08/28/03 to 03/31/05
    Homeland Security              02SVHTN014                  09/01/02 to 0813 1/05            03/01/03 to 02/28/05
    Administrative                 04CAHTN001                  01/01/04 to 12/31/06             01/01/04 to 06/30/05
    PDAT                           02PDSTN042                  01/01/02 to 12/31/04             07/01/03 to 12131/04
    PDAT                           05PTHTN001                  01/01/05 to 12/31/07             01/01/05 to 06/30/05
    Learn & Serve                  OOLCSTNO42                  09/01/00 to 0813 1/04            09/01/02 to 0813 1/04
    Promise Fellows                01APSTN044                  08/01/01 to 02/28/05             03/01/03 to 02/28/05
    Disability                     04CDHTN001                  01/01/04 to 12/31/06             01/01/04 to 06/30/05

  We conducted our audit in accordance with auditing standards generally accepted in the
  United States of America and generally accepted government auditing standards issued by
  the Comptroller General of the United States.

                                          Compliance and Other Matters

  As part of obtaining reasonable assurance about whether the financial schedules are free of
  material misstatement, we performed tests of compliance with certain provisions of laws,
  regulations, and the terms and conditions of the awards, noncompliance with which could
  have a direct and material effect on the determination of the amounts on the financial
  schedules. However, providing an opinion on compliance with those provisions was not an
  objective of our audit, and accordingly, we do not express such an opinion. The results of
  our tests disclosed instances of noncompliance or other matters that are required to be
  reported under Government Auditing Standards and which are described in the Compliance
  Findings section of this report.




  cx - Audit periods differ because Financial Status Reports (FSR) are filed for different periods based on the
  grant award. Our audit reflected costs through the last amended FSR filed as of fieldwork end for the audit
  period applicable to each grant, as referenced in the table above.

                                                               18

                      MthlBtKS O F AlCPAAhD C A L l F O R h l A S O C I E ~O F CERTIF E D PUBLIC A C C O L h l A \ T S
          MEMBER O F AMERlCAh IkSTIT-TE O F CERTIFIED P-BLlC ACCOUhTAhTS PRIVATE C O M P A h E5 PRACTICE SECTION
The results of our tests of compliance disclosed the following instances of noncompliance:

1: - Promise Fellows Living Allowances Were Not Paid in Accordance with Grant
Provisions

During our fieldwork at the Northeast Community Service Agency we found seven instances
where Promise Fellows member living allowances were paid incorrectly. The living
allowances were paid based on the number of days enrolled in the program rather than the
number of hours served. This methodology of computing partial living allowances does not
meet the requirements prescribed in the provisions. Neither the Commission nor the
subgrantee was familiar with the requirements of calculating partial living allowances for the
Promise Fellows program (see Exhibit C, Note 3.). Unallowable and non-allocable costs of
$18,920 may have been charged to the grant.

Criteria

AmeriCorps Promise Fellows Provisions (updated October 2003), Section B              -   Special
Provisions, Number 11.a., Living Allowances, states in part:

       If the term of service is less than 12 months, the living allowance must be pro-rated.

AmeriCorps Promise Fellows Provisions (updated October 2003), Section C - General
Provisions, Number 38.c.ii., Final Payment Amounts for a Fractional Term of Service, states:

       For Members who complete a fractional term of service, the Grantee shall be paid on
       a prorated basis in accordance with the duration of full-time service completed by
       each member. For the purposes of calculating this amount, full-time service is based
       on an average of at least 142 hours of service per month.

This finding is also considered to be an internal control weakness.

Recommendation

Recommendation 1: We recommend that the Corporation determine the allowability of the
questioned costs, recoup unallowable costs that were charged to the grant, and ensure the
Con~missiontrains and monitors its subgrantees so that living allowances are paid in
accordance with AmeriCorps Provisions.

Commission S Resvonse

The Commission disagrees with the finding on the grounds that the provisions are confusing
and contradictory. The Commission also believes that the computation for two of the seven
members in question is inaccurate because the members were actively involved in the
program for 12 months although they did not complete a full year of service.

Auditor's Comment

We believe the term of service for all seven members was less than 12 months, and therefore,
the finding and recommendation remains unchanged.

2: - The Commission did not have adequate procedures in place to ensure that the
subgrantees documented member eligibilitv, and to ensure that members com~letedthe
service hours required to earn the education award.

We found two instances at Vanderbilt where living allowances and fringe benefits were paid
to AmeriCorps members whose member files did not include appropriate eligibility
documentation. After completion of fieldwork, Vanderbilt gave the Commission verification
of birth records for the two members in question. In response to our audit exceptions,
Vanderbilt requested these records from the states from which the members had been born.
This documentation resolved the finding as it pertains to potential questioned costs, but did
not resolve the fact that the member file did not originally contain this information. We also
found two instances (one at Vanderbilt and one at Porter Leath) where members had received
education awards without meeting minimum service hour requirements. Questioned
education awards by subgrantee were as follows:

                                                                     Education
                          Subgrantee                    Grant         Award
             Vanderbilt University Medical Center   03ACHTN001          $ 4,585
             Porter Leath                           03AFHTN002          4.725
                    Total                                               !!2&.2u
Additionally, we found two instances (one at the Exchange Club and one at Porter Leath)
where member timesheets indicated fewer hours than had been reported to the National
Service Trust database via entries to the Web-Based Reporting System (WBRS). These
variances, however, did not affect the members' ability to meet their minimum service-hour
requirements, and as such, did not affect the education awards.

Officials at the Exchange Club indicated that one timesheet had been entered into WBRS
twice. Officials at Porter Leath believed that timesheets were missing and once they were
found, the variance would be resolved.

The problems with eligibility were due to a combination of inadequate filing and
documentation. The problems with the education awards were the result of computational
errors in claiming members' service hours.

Ineligible members may have received living allowances and education awards and members
who did not fulfill the service requirement were certified to receive an education award.
Criteria

AmeriCorps Provisions, Section A - Definitions, defines, in part, an AmeriCorps member as
an individual:

       a. Who enrolled in an approved national service position;

       b. Who is a U.S. citizen, US. national or lawful permanent resident alien of the
       United States;

AmeriCorps Provisions, Section B - Special Provisions, Number 14.b. Verification., states:

        To verify U.S. citizenship, US. national status or, U.S. lawfd permanent resident
        alien status, the Grantee must obtain and maintain documentation as required by 45
        C.F.R. 2522.2000 @) and (c). The Corporation does not require programs to make
        and retain copies of the actual documents used to confirm age or citizenship
        eligibility requirements, such as driver license, or birth certificate as long as the
        Grantee has a consistent practice of identifying the documents that were reviewed
        and maintaining a record of the review.

AmeriCorps Provisions, Section B - Special Provisions, Number 12., Post-Service Education
Awards, states:

       In order to receive a full education award, a member must perform the minimum
       hours of service as required by the Corporation and successfully complete the
       program requirements as defined by the Program.. .. If a member is released from a
       program for compelling personal circumstances, the member is eligible for a pro-
       rated education award based on the number of hours served.. ..

The AmeriCorps General Provision, C.22.c.ii., AmeriCorps Members., requires that grantees
maintain time and attendance records on all AmeriCorps members in order to document their
eligibility for in-service and post-service benefits.

This finding is also considered to be an internal control weakness.

Recommendation

Recommendation 2: We recommend that the Corporation instruct the Commission to work
with its subgrantees and more closely monitor them to ensure that (1) member files contain
all required documentation; (2) written policies and procedures are established requiring
member hours be verified on an ongoing basis and prior to members exiting the program; and
(3) education awards that were not earned in accordance with grant provisions are recouped.
 Commission 's Resuonse

 The Commission concurs with parts 1 and 2 of the above recommendation but partially
 agrees with part 3. The Commission believes there is a precedent, included in 2003
 Corporation guidance, that allows partial education awards to be granted to members such as
 those cited in the finding.

 Auditor S Comment

 Corporation Regulation 45 C.F.R., $ 2522.230(a), allows members who complete at least
 15 percent of the required term of service to be eligible for a partial education award
 provided that the p&icipant demonstrates and the-program documents a compelling
 circumstance.    Examples of compelling circumstances are found in 45C.F.R.
 $ 2522.230(a)(5). without documented compelling circumstances, our finding and
 recommendation remain unchanged.

 3: - The Commission did not have adeauate financial monitoring procedures or other
 procedures in place to ensure that it or its subgrantees had claimed costs in accordance
 with the cost principles.

 We noted several instances where costs claimed by the Commission were questioned because
 they did not comply with the cost principles discussed below. We have questioned $3.741 of
 costs claimed to the Corporation and $1,636 claimed to grant match as follows:

                                                                      Corporation
          Descriation               Eutitv            Grant            ~iount
Dual Service Agreement            Commission       04CAHTN001            $ 815
Personnel Costs Understated       Commission
Journal Entry Error               Commission
Risk Management Premiums          Commission
 Subtotal Administratixe Grant    Commission

Dual Service Agreement            Commission
Personnel Costs Overstated        Commission
    Subtotal Disability Grant

Journal Entry Error                Vanderbilt
Misclassification                 Clinch Powell
   Subtotal Competitive Grant

Misclassification                 Clinch Powell
    Subtotal Formula Grant
      Total

 The grants received no benefits from the costs described above and, as such, should not have
 been claimed.
Criteria

OMB Circular A-87, Attachment A, Part C Basic Guidelines, paragraph 3.a., states:

       A cost is allocable to a particular cost objective if the goods or services involved are
       chargeable or assignable to such cost objective in accordance with relative benefits
       received.

This finding is also considered to be an internal control weakness.

Recommendations

Recommendation 3: We recommend that the Corporation instruct the Commission to: (1)
devise a method to properly match revenue received from dual service agreements with grant
expenses; (2) scrutinize costs claimed to the grants to ensure that journal entries and state-
wide internal billings are prepared without error; and (3) monitor grant accounting
implications when new staffing assignments arise within the Commission.

Recommendation 4: We also recommend the Corporation determine the allowability of the
costs questioned.

Commission's Resvonse

The Commission concurs.

Auditor's Comment

The Commission's concurrence with recommendations 3 and 4 is noted.

4: - The Commission did not monitor subgrantees for timely enrollment or exit of
members, nor did it ensure receipt of timely propress reoorts.

We found the following instances where the subgrantees were not submitting member
enrollment and exit information timely and two instances of late progress reports. We note
that the Commission regularly performed monitoring and follow up of its subgrantees.
However, the monitor tool does not include checking for timely enrollment and exit forms
and for timely submission of progress reports.
                                           Total       Member           Late                    Late
                                          Members        Files       Enrollment   Late Exit   Progress
               Subgrantee                 Enrolled     Reviewed        Forms       Forms      Re~orts

 Clinch Powell RC&D                           51           26             19          1
 Emerald Youth Foundation                     45           23             10          1
 Exchange Club                                38           19             19         2           1
 Porter Leath                                 49           25
 Vanderbilt University                        58           30             12         7
 Northeast Community Service ~ ~ e n c ~      '
                                              17           10             5                      1

Enrollment forms were submitted late, ranging from 1 day to 224 days. Exit forms were also
submitted late, ranging from 4 days to 358 days. Progress reports were submitted 13 and 56
days late. Our testing revealed that Financial Status Reports and member change-of-status
forms were submitted in a timely manner.

By not submitting the required documents within established time frames, the Corporation
and Commission cannot properly review, track, and monitor the subgrantees' activities and
objectives of the AmeriCorps program. In addition, without current member and financial
information, the Corporation may be unable to make timely and effective management
decisions.

Criteria

AmeriCorps. ArneriCorps Special Provision B.16.a., Financial Status and Progress
Reports, establishes due dates for semi-annual reporting and states that grantees must submit
progress reports by these dates. It further establishes that Grantees establish their own
submission deadlines for their respective subgrantees. Subsection B.16.b., AmeriCorps
Member Related Forms, specifies the forms that grantees must submit to the Corporation to
track AmeriCorps member status and hours.

The Commission provided a letter from its Deputy Director to the AmeriCorps Program
Directors, dated November 21, 2003, stipulating the required report submission dates for
financial status reports as well as progress reports.

Promise Fellows. AmeriCorps Promise Fellows Provisions (updated Octobcr 2003), Section
B - Special Provisions, Number 16.b.iii., Reporting Requirements, specifies that subgrantees
subinit progress reports and FSR's as directed by the grantee.

AmeriCorps Promise Fellows Provisions, Section B                -   Special Provisions, Number 16.c.,
AmeriCorps Member-Related Forms, states:

        The Grantee is required to submit the following documents to the National Service
        Trust at the Corporation on forms provided by the Corporation. Grantees and Sub-
        Grantees may use WBRS to submit these forms electronically. Programs using


' A Promise Fellows subgrantee included within the scope of our engagement.
       WBRS must also maintain hard copies of the forms:

           i. Grantees must submit Member Enrollment Forms to the Corporation no later
              than 30 days after a member is enrolled.

Recommendation

Recommendation 5: We recommend that the Corporation instruct the Commission to
monitor for timely member enrollment, exit, and progress reporting and reiterate the
importance of the requirements to its subgrantees.

Commission's Resvonse

The Commission concurs.

Auditor's Comment

The Commission's concurrence is noted.

Internal Control Finding


Finding No. 5: -The Postal Division handling fee computation was not sup~orted.

Handling fees for the state's Postal Division have been claimed to the Learn & Serve,
Administrative, and Disability grants. The fees are added to the cost of postage based on the
number and types of pieces handled by the division and are devised to assist the division in
recovering overhead costs. Rates for handling fees vary based on the type of piece, ranging
from 2 to 10 cents per piece. The rates were originally developed in 1994 and last updated
approximately five years ago. The basis of the rates, however, was not documented because
the Postal Division was unaware that documentation supporting the computation of the rates
should be retained. Our sample of four postage transactions revealed that approximately
20 percent of the costs claimed to postage represents handling fees. However, we could not
determine the allowability of these costs since the computation of the rates had not been
retained. As an alternative procedure, we determined that the Postal Division was not
operating at a surplus and profiting from the handling fees by reviewing the division's
income statement. We also reviewed the methodology in devising the rates. We therefore
determined that, since the division was not profiting from this arrangement and the
methodology in computing the rates appeared reasonable, questioning costs claimed to the
grant would not be appropriate.

Criteria
OMB Circular A-87, Attachment A, Section C., paragraph 1, states: "To be allowable under
Federal awards, costs must meet the following general criteria...(i) Be adequately
documented."
                                             25
Recommendation

Recommendation 6: We recommend that the Corporation require the Commission to exclude
the Postal Division's handling fees from subsequent costs claimed until the Commission
submits appropriate supporting computational documentation to the Corporation for approval
and ensure the Commission documents, and retains for review, the computations for future
rate changes.

Commission 's Resvonse

The Commission partially disagrees with the recommendation. The Commission is working
with the postal division to obtain supporting documentation for current rates but does not
agree that postal division fees should be excluded from future claims until supporting
documentation can be obtained.

Auditor's Comment

We believe the Commission places itself at risk in claiming costs that are unallowable to the
Corporation until all costs included in the build up of the postal division rates have been
disclosed and analyzed. Therefore, the finding and recommendation remain unchanged.

Internal Controls Over Financial Reporting

In planning and performing our audit of awards costs as presented in Exhibits A through D
for the period September 1, 2002, to June 30,2005, we considered the subgrantees' internal
controls over financial reporting in order to determine our auditing procedures for the
purpose of expressing our opinion on the financial schedules and not to provide an opinion
on the internal controls over financial reporting. However, we noted certain matters
involving the internal control over financial reporting that we consider to be reportable
conditions. Reportable conditions involve matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control over financial
reporting that, in our judgment, could adversely affect the subgrantees' ability to record,
process, summarize, and report financial data consistent with the assertions of management
in the financial statements. Compliance findings numbered 1 through 4, as set forth in the
Compliance and Internal Control Findings Sections of this report, are also considered as
internal control reportable conditions.

A material weakness is a reportable condition in which the design or operation of one or
more of the internal control components does not reduce, to a relatively low level, the risk
that misstatements caused by error or fraud in amounts that would be material in relation to
the financial statements being audited may occur and not be detected within a timely period
by employees in the normal course of performing their assigned functions. Our consideration
of the internal control over financial reporting would not necessarily disclose all matters in
the internal controls that might be reportable conditions and, accordingly, would not
necessarily disclose all reportable conditions that are considered to be material weaknesses.
However, we believe all of the reportable conditions identified above represent material
weaknesses.




Conrad and Associates, L.L.P.
Irvine, California
November 22,2005
                      Appendix A



             Response to the Draft Report
                        by the
Tennessee Commission on National and Community Service
                                                  April 10,2006


Ms. Carol Bates
Acting Inspector General
Corporation for National & Community Service
1201 New York Avenue, NW, Suite 803
Washington, D.C. 20525

Dear Ms. Bates:

Thank you for the opportunity to review and comment on the draft report on the Audit of
Corporationfor National and Community Service Grants Awarded to the Tennessee Commission
on National and Community Service.

Our comments are attached. Overall, the audit was a very helpful review of our internal controls
and systems. We appreciated the professionalism of Conrad and Associates.

We look f o m d to completing the audit process with the final publication of the report and
resolution with the Corporation. If additional information is needed, please let me know.

Sincerely,



Carol White
Executive Director



Xc:      'Toby Compton, Commission Chair
         John Harris, Commission Treasurer
         Buddy Lea, Department of Finance and Administration
         Maureen Abbey, Office of Business and Finance
         Doug Gerry, Corporation for National & Community Service
         Jolene Harrell, Corporation for National & Community Service
         Rene Jorgeson, Principal, Conrad and Associates
         Arthur A. Hayes, Jr., Director, Division of State Audit, State of Tennessee


            R. SNODCRASS
      WILLIAM          TENNESSEETOWER,12" n o o R . 312 8" AVENUE   NORTIT.NASHVILLE,TENNESSEE
                                                                                            37243
                    PHONE:VOICE(615) 532-9250. TDD (615) 532-9250. FAX(615) 532-6950
               THESTATEOFTE~ESSEE
                             IS AN EQUAL OPPORTUNITY,EQU*LACCESS, AFFIRMATIVE ACTIONEMIWYU(. R F ~ ~ C L E D P A P E R
         Tennessee Commission on National and Community Service
                            Audit Response
                                          4/6/06



1. Promise Fellows Questioned Costs Claimed to CNCS $18,920   -
The Commission disagrees with this finding. The Promise Fellows provisions are
confusing and contradictory. In an email to the Commission dated January 12,2006,
the auditors say, "In talking to Doug [Gerry], it is obvious that the provisions are not
clear and everyone may have a different interpretation." It is not appropriate to
penalize a non-profit for fundamental lack of program provisions clarity. Promise
Fellow provision 11.b. specifically says "Programs must not pay a living allowance
on an hourly basis." Provision 38 contradicts this by suggesting that payments to the
grantee be made based on the number of hours served. In addition, the Provision
38s. "Final Payment for a Fractional Term of Service" is subject to a variety of
interpretations, including the one followed by NECSA. The Corporation's own
example in 38.c.iii. "Example 1" divides the living allowance evenly by the number
of months, not by the number of hours.

Additionally, Provision 38 appears to be misapplied for the first two members listed
in Exhibit C who had 1,552.5 hours and 1,199.25 hours of service. Provision ll.a.
states "Fellows must receive a living allowance between $13,000 and $19,800 based
on a 12-month term of service. If the term of service is less than 12 months, the living
allowance must be pro-rated." Although these members did not complete enough
hours to earn the education award, they did complete a full, twelve-month term of
service from 1/26/04 to 12/22/04 and from 1/26/04 to 12/19/04 respectively. Both of
these terms are only a few days short of one calendar year. The point of the fractional
payments appears to be intended for members who leave the program early, not for
members who finish the program without earning the education award.

Furthermore, Provision 39. "Order Of Precedence" states that "Should there be any
inconsistency among the Grant Award, the AmeriCorps Promise Fellows Special
Provisions, the General Provisions, and the approved Grant Application, the order of
precedence that will prevail is (1) Grant Award, (2) the AmeriCorps Special
Provisions, (3) the General Provisions, and (4) the approved Grant Application."
Provision 11 falls within the Special Provisions and, therefore, takes precedence over
Provision 38, which falls under the General Provisions.

2. Questioned Education Awards $9,310 -
'The Commission concurs with parts 1 and 2 of Recommendation 2. Although the
Commission currently trains program directors on proof of citizenship and member
hour tracking and checks for citizenship and member hours during regular
monitoring, we will reexamine our processes to see if we can further strengthen them
to ensure compliance. In consultation with the national technical assistance provider,
Walker & Co, they suggested that subgrantee training should emphasize clear
assignment of one person whose responsibility in the process is specifically to verify
member hours before entering into WBRS throughout the term of service and
certifying eligibility for an education award at the end. At our most recent statewide
AmeriCorps program directors meeting on March 30, Commission staffreviewed all
draft audit findings, including this one, reiterated program requirements and discussed
additional strategies for improved compliance.

The Commission partially disagrees with part 3 of Recommendation 2. In both
questioned education awards, the programs made errors in calculating the members'
time. These errors were discovered after the members had already been exited from
the Droerram when it was too late for the members to make UD the additional hours. In
20&, &other program had a similar situation, and the orp pi ration gave guidance to
the Commission that the program should revise the hours in WBRS and release the
member with a partial awarzfor compelling personal circumstances. Their
reasoning, with which the Commission agreed, was that the situation met the two
criteria for a release for compelling        circumstances: the error was beyond the
member's control and it prevented the member from completing the required hours.
In directing Vanderbilt University on how to address the questioned education award,
the Commission based its guidance on the 2003 Corporation guidance. Based on the
2003 guidance, the Commission requested that Vanderbilt reimburse the National
Service Trust $139, which was the difference between the full award and what the
member actually earned. The Commission believes that Porter-Leath Children's
Center should be allowed to follow the 2003 guidance and return only the portion of
the education award above the amount based on the actual number of hours.

Beyond returning the amounts of the education awards above the actual hours earned
by the two members, the Commission does not believe that the programs should be
pinahzed for following guidance given by a Corporation             officer. Further,
the Commission requests that the Corporation clarify its policy on this issue.

                                                         -
3. Costs Claimed in Accordance with Cost Principals $5,377

We concur.

(1) Employees with Dual Service Agreements will be paid using the employee's State
Employee Information System (SEIS) cost center. If the SEIS cost center is funded by
a federal grant, then a reallocation journal voucher will be prepared by the Financial
Management unit. Salaries and fringe benefits will be reallocated from the SEIS cost
center to cost center Dual Service Agreements (DSA). Funds received from a college
or university will be credited to cost center DSA.

(2) Monthly expenditures claimed to grants will be reviewed for accuracy. Actual
billings for Risk Management Premiums from the Department of Treasury will be
compared to the preliminary billing that is sent to the department in advance.
Discrepancies will be documented and resolved with the Department of Treasury.

(3) The State of Tennessee uses the Labor Distribution System to record employee's
actual time for each day, including allocations among cost centers. The primary
system for monitoring grant accounting implications when new staffing assignments
arise within the commission is the labor distribution profile information in the
Request for Personnel Action form. If an employee shows time projected to be
allocated to more than one grant, that employee should be filing an attachment to the
regular timesheet that shows actual allocation of time between the different programs.
The approved actual time is then recorded into the Labor Distribution System by the
timekeeper. With a reorganization after the departure of Sherica Clark and the
conclusion of the homeland security grant, no commission staff currently split their
time.



4. Compliance - WBRS Reporting

The Commission concurs with Recommendation 4 and will examine ways to
strengthen systems for compliance with these requirements. However, the
Commission would also like to note that the 2003-04 Grantee Information Profiles
were not uploaded into WBRS by the Corporation until 9/29/03. This would have
delayed August start date programs in submitting their member enrollment forms
within the thirty days required. At the time, the Commission expressed concern to the
Corporation about the 30-day enrollment limit.

Again, the Commission has already talked with its subgrantees at a training on March
30,2006, to reiterate these requirements and the importance of compliance.

5. Internal Control - The Postal Division Handling Fee was not supported.

The Commission partially disagrees with Recommendation 6.

The Commission is in continued discussion with the State of Tennessee Department
of General Services postal division related to the request for supporting
documentation for current rates beyond the information which was already provided
to auditors upon which the determination was made not to question costs.

                                       . .                -
Given that the auditors determined that vast vostal handling fees were allowable costs
(not questioned) because the internal service fund was properly adjusted to avoid
sumluses. it seems inconsistent to "exclude the Postal Division's handling- fees from
subsequent costs claimed" going forward, even as a bureaucratic leveraging tactic.

Because the Commission receives no other funds besides federal and state match that
could be used to pay postage handling fees, implementing this recommendation
essentially implies that the Commission should not use state postal services until this
additional information is provided. That is an untenable operational position for the
effective delivery of the commission's program services, especially given that the
amounts in question range from $6.80 in December 2005 to $9 in January 2006 and
$6.10 in February.

Further, it is standard practice in government for internal service funds and services to
exist. Each fund calculates and reuorts its rates differentlv. based on the accented
practices of its business. The me&odology used by each &nd is submitted i d
approved annually by Tennessee's cognizant federal agency, the U.S. Department of
Health and Human Services, in the Statewide Cost Allocation Plan (SWCAP). The
documentation for rate calculations resides with the management of each of the State
of Tennessee internal service funds. It is not reasonable to ask the Commission to
keep the computations for future rates.
                 Appendix B



         Response to the Draft Report
                     by the
Corporation for National and Community Sewice
                                 Cor~orationfor




To:

From:                                                     anagement

Cc:
                        u                         u
               Elizabeth L).Seale, Acting Director of AmeriCorps
               Tory Willson, Audit Resolution Coordinator, Office of the CFO

Date:          April 10,2006

Sub:           Response to OIG Draft Audit Report, Audit of Corporation for National and
               Community Service Grants Awarded to the Tennessee Commission on National
               and Community Service.


Thank you for the opportunity to review the draft audit report of Corporation for National and
Community Service Grants awarded to the Tennessee Commission on National and Community
Service. The Corporation has also reviewed the response from the Tennessee Commission. We
are addressing only one issue at this time. We will respond to all findings and recommendations
in our management decision when the final audit is issued; we have reviewed the findings in
detail; and worked with the Tennessee Commission to resolve the audit.
As noted in the draft audit report, the auditors questioned $1 8,920 because they determined
Promise Fellows living allowances were paid incorrectly. The program paid the living allowance
based on the number of days enrolled in the program rather than the number of hours served.
However, the Corporation does provide some flexibility to programs to ensure the living
allowance is paid in regular increments and is not paid on an hourly basis.

The Provisions state that Promise "Fellows must receive a living allowance between $13,000 and
$18,600 based on a 12-month term of service. If the term of service is less than 12 months, the
living allowance must be pro-rated." The Provisions also state that the living allowance is not a
wage and should not fluctuate based on the number of hours members serve in a given time
period. Programs should pay the living allowance in increments, such as weekly or bi-weekly."
Therefore, the pro-rated amount members could receive would be based on the regular
increments established by the program. The program could prorate the living allowance based on
the number of days of service.

The auditors may have confused guidelines on how to pay the living allowance to members with
grant provisions describing how the grantee is reimbursed for member service by the
Corporation. The Promise Fellows program is a fixed price grant. The grantee can only access
grant funds based on the number of members who successfully complete the term of service and
pro-rated amounts for those who do not. If the member does not complete a 111term of service,
the Provisions provide guidelines on how to determine how much the grantee can be reimbursed
for that member. This is not necessarily related to the amount the member received for the living
allowance from the grantee. The auditors applied the guideline of an average of 142 hours per -
month when they calculated the amount of living allowance the member could receive.
However, that average is the Corporation's guideline determining the amount the grantee can be
reimbursed from the Corporation for members who don't complete service. During audit
resolution, we will apply this formula to determine the amounts of allowed and disallowed costs.
We anticipate allowing the costs to the extent that the program met the provisions under the fixed
price grant.
The Corporation will address the remaining questioned costs and other findings during audit
resolution after the audit is issued as final.
